  QUALITY CONTROL REVIEW OF KPMG PEAT MARWICK LLP
       AND THE DEFENSE CONTRACT AUDIT AGENCY
             THE SMITHSONIAN INSTITUTION
         FISCAL YEAR ENDED SEPTEMBER 30,1996


Report Number PO 98-6-008                March 20, 1998



             Office of the Inspector General
                 Department of Defense
Additional Copies

To obtain additional copies of this report, contact the Secondary Reports Distribution Unit of
the Analysis, Planning, and Technical Support Directorate at (703) 604-8937 (DSN 664-8937)
or FAX (703) 604-8932 or visit the Inspector General, DOD, Home Page at:
WWW.DODIG.OSD.MIL

Suggestions for Future Audits or Evaluations

To suggest ideas for or to request future audits or evaluations, contact the Planning and
Coordination Branch of the Analysis, Planning, and Technical Support Directorate at
(703) 6048908 (DSN 664-8908) or FAX (703) 604-8932. Ideas and requests
can also be mailed to:

                      OAIG-AUD (ATTN: APTS Audit Suggestions)
                      Inspector General, Department of Defense
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-2884

Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling (800) 4249098; by
sending an electronic message to Hotline@DODIG.OSD.MIL; or by writing to the Defense
Hotline, The Pentagon, Washington, DC 20301-1900. The identity of each writer and caller
is fully protected.




Acronyms

DCAA           Defense Contract Audit Agency
GAS            Government Auditing Standards
KPMG           KPMG Peat Marwick LLP
OMB            Office of Management and Budget
SAO            Smithsonian Astrophysical Observatory
                                   INSPECTOR     GENERAL
                                   DEPARTMENT   OF DEFENSE
                                     400 ARMY NAVY DRIVE
                                   ARLINGTON, VIRGINIA 22202




                                                                              March 20, 1998

Board of Regents
Smithsonian Institution
955 L’Enfant Plaza, SW
Suite 7400
Washington, DC 20560

Mr. I-Ierbert Folpe
Partner-in-Charge, Public Services Practice
KPMG Peat Marwick LLP
345 Park Avenue
New York, NY 10154-0004

Director, Defense Contract Audit Agency
8725 John J. Kingman Road, Suite 2135
Fort Belvoir, VA 22060-62 19


SUBJECT:     Quality Control Review of KPMG Peat Marwick LLP
              and the Defense Contract Audit Agency
             The Smithsonian Institution
             Fiscal Year Ended September 30, 1996
             Report No. PO98-6-008 (Project No. 80A-9008.03)

Introduction

       We are providing this report for your information. The Washington, D.C. office of
       KPMG Peat Marwick LLP (KPMG), and the Landover, Maryland, office of the
       Defense Contract Audit Agency (DCAA) performed the coordinated single audit for the
       Smithsonian Institution (Smithsonian), Washington, D.C. The audit was required by
       Office of Management and Budget (OMB) Circular A-133, “Audits of Institutions of
       I-Iigher Education and Other Non-Profit Institutions. ” For the fiscal year ended
       September 30, 1996, the Smithsonian reported total Federal expenditures of
       $53,657,000, representing $1,375,000 for the Department of Defense (DOD) and
       $52,282,000 for other Federal agencies.

       The KPMG audit report, dated January 17, 1997, includes reports on internal controls,
       compliance, and the Schedule of Federal Awards. The auditors issued an unqualified
       opinion on the financial statements and Schedule of Federal Awards. The DCAA
       issued several reports, including a report (September 30, 1997) on compliance for the
     Smithsonian Astrophysical Observatory (SAO), a component of the Smithsonian, and
     reports (October 3, 1997) on internal controls for the Smithsonian and SAO.

     KPMG issued positive and negative assurance statements on compliance with general
     requirements. Positive assurance means that, with respect to the items tested, the
     results of auditors* procedures disclosed no material instances of noncompliance.
     Negative assurance means that, with respect to the items not tested, nothing came to the
     auditors’ attention that caused them to believe that the Smithsonian had not complied in
     all material respects.

     The auditors obtained an understanding of the internal controls related to the financial
     statements and Federal awards. The audit report describes the auditors’ scope of work
     in obtaining that understanding and in assessing control risk. The report on internal
     controls further describes the significant internal controls and control structure that
     provide reasonable assurance that Federal awards are being managed in accordance
     with applicable laws and regulations.


Quality Control Review Results

     The coordinated audit performed by KPMG and DCAA meets the applicable guidance
     and regulatory requirements in OMB Circular A-133 and its related Compliance
     Supplement, which incorporate Government Auditing Standards (GAS) and generally
     accepted auditing standards.


Quality Control Review Objective

     The objective of a quality control review is to ensure that the audit was conducted in
     accordance with applicable standards and meets the auditing requirements of OMB
     Circular A-133. As the Federal cognizant agency for the Smithsonian, we conducted a
     quality control review of the KPMG and DCAA audit working papers. We focused our
     review on the following qualitative aspects of the audit: due professional care,
     planning, supervision, independence, quality control, internal controls, substantive
     testing, general and specific compliance testing, and the Schedule of Federal Awards.

     We reviewed the most recent peer review letter for KPMG issued by Price Waterhouse
     LLP on November 8, 1996. The peer review letter states that KPMG met the
     objectives of the quality control review standards established by the American Institute
     of Certified Public Accountants and that KPMG complied with the standards during the
     fiscal year ended March 31, 1996.
Scope and Methodology

     We used the 1991 edition of the Uniform Quality Control Guide for Single Audits (the
     Guide) that was approved by the President’s Council on Integrity and Efficiency as
     guidance for performing the quality control review procedures. The Guide is organized
     by the general and field work audit standards and the required elements of a single
     audit. The Guide is further divided into the substantive audit work performed during
     the audit of financial statements and the specific program compliance testing for major
     programs. In addition, we supplemented the Guide to include additional review of
     transaction testing. Our quality control review covered areas related to the financial
     statements, major programs, and nonmajor programs. Our review was conducted from
     January 5 through 16, 1998.


Results of Prior Quality Control Reviews

     We identified minor quality control review findings and recommendations at two of the
     eight KPMG locations we visited at various times from January 1, 1995, through
     July 31, 1997. The affected offices were notified, and no significant, further action is
     necessary.


Background

     The Inspector General Act of 1978, Public Law 95-452, as amended, prescribes the
     duties and responsibilities of that office. In implementing those responsibilities, the
     Inspector General is required to “take appropriate steps to assure that any work
     performed by non-Federal auditors complies with the standards established by the
     Comptroller General. ”

     The Single Audit Act of 1984 (Public Law 98-502) was intended to improve the
     financial management of state and local governments whose total annual expenditures
     are $100,000 or more with respect to Federal financial assistance programs; establish
     uniform requirements for audits of Federal financial assistance; promote efficient and
     effective use of audit resources; and ensure that Federal departments and agencies rely
     on and use the audit work done under the Act, to the maximum extent practicable.

     The Single Audit Act Amendments of 1996, based on 12 years of experience under the
     1984 Act, are intended to strengthen the usefulness of single audits by increasing the
     audit threshold from $100,000 to $300,000 in Federal financial assistance before an
     audit is required under the Act; by selecting programs to be audited on the basis of risk
     assessment rather than the amount of funds involved; and by improving the contents
     and timeliness of single audits. The Amendments also bring nonprofit organizations,
     previously covered by similar requirements in the OMB Circular A-133, under the
     Single Audit Act.


                                              3
       The OMB Circular A-133 establishes the Federal audit and reporting requirements for
       nonprofit and educational institutions whose Federal awards are or exceed $100,000.
       The Circular provides that an audit made in accordance with the Circular shall be in
       lieu of any financial audit required under individual Federal awards. An agency must
       rely on the audit to the extent that it provides the information and assurances that an
       agency needs to implement its overall responsibilities. The coordinated audit approach
       provides for the independent public accountant, Federal auditor, and other non-Federal
       auditors to consider each other’s work in determining the nature, timing, and extent of
       their respective audit procedures. The Circular also requires that the cognizant agency
       obtain or conduct quality control reviews of selected audits made by non-Federal
       auditors and provide the results, when appropriate, to other interested organizations.
       The revised Circular was issued on June 24, 1997, to incorporate the changes in the
       Single Audit Act Amendments of 1996. Its provisions apply to audits of fiscal years
       beginning after June 30, 1996.


Discussion   of Results

       During our quality control review, we reviewed and took no exception to the working
       papers supporting the following reports and schedules.

       Independent Auditors’ Report. The auditor is required to obtain reasonable
       assurance about whether the financial statements are free of material misstatement. We
       reviewed the audit program and the testing of evidential matter to determine whether
       testing was sufficient, based on assessment of control risk, to warrant the conclusion
       reached and whether the working papers supported the conclusion.

      Report on the Internal Control Structure Based on an Audit of Financial
      Statements Performed in Accordance with Government Auditing Standards. The
      auditor is required to obtain an understanding of the internal control structure that is
      sufficient to plan the audit and to assess control risk for the assertions embodied in the
      financial statements. We reviewed the audit program for the appropriate procedures,
      the working paper documentation, and the substantive testing performed.

      Report on Compliance with Laws, Regulations, Contracts, and Grants Based on
      an Audit of Financial Statements Performed in Accordance with Government
      Auditing Standards. The auditor is required to determine whether the recipient has
      complied with laws and regulations that may have a direct and material effect on the
      determination of financial statement amounts. We reviewed the audit program for the
      appropriate procedures, the working paper documentation, its support, and the
      compliance tests performed.

      Report on Schedule of Federal Awards. The auditor is required to subject the
      schedule to the auditing procedures applicable to the audit of the financial statements


                                               4
and to ensure that the amounts are fairly stated in relation to the basic financial
statements. Our review was included in the steps of evaluation of the audit working
papers related to the Independent Auditors’ Report.

Report on Internal Control Structure Used in Administering Federal Awards. The
auditor is required to assess control risk to determine whether to place reliance on the
internal control structure. The auditor must perform tests of controls to evaluate the
effectiveness of the design and operation of the policies and procedures in preventing or
detecting material noncompliance, to review the system for monitoring subrecipients
and obtaining and acting on subrecipient audit reports, and to determine whether
controls are effective to ensure that direct and indirect costs are calculated and billed in
accordance with the general and specific requirements in the Compliance Supplement.
We reviewed the audit program for the appropriate procedures, the working paper
documentation, and the results of the testing of controls.

Report on Compliance with General Requirements. The auditor is required to
determine whether the recipient has complied with laws and regulations that may have a
direct and material effect on any of its major Federal programs. General requirements
are those that could have a material effect on the recipient’s financial statements
including those prepared for Federal programs. The auditors’ procedures were limited
to those prescribed in the OMB Circular A-133 Compliance Supplement, except for
allowable costs/cost principles, which were audited by DCAA. We reviewed the audit
program for the appropriate procedures, compared the audit program steps to those in
the Compliance Supplement to make sure that all areas were audited, reviewed the
working paper documentation and its support, reviewed the compliance tests
performed, and reevaluated selected compliance items.

Report on Compliance with Specific Requirements Applicable to Major Programs.
The auditor is required to determine whether the recipient has complied with laws and
regulations that may have a direct and material effect on its major Federal programs.
The requirements included types of services allowed or unallowed; eligibility;
matching, level of effort, and/or earmarking requirements; special reporting
requirements; and special tests and provisions. We reviewed the audit program for the
appropriate procedures, compared the audit program steps to those in the Compliance
Supplement to make sure that all areas were audited, reviewed the working paper
documentation and its support, reviewed the compliance tests performed, and
reevaluated selected compliance items.

Management Letter on Immaterial Findings. The auditor is not required to, but may
report immaterial findings in the audit report or report them to the recipient in writing
in a separate communication. The recipient is.responsible for forwarding the findings
to the Federal grantor agencies, where applicable. The issues raised in the management
letter do not relate to Federal awards.
Report on OMB Circular A-133 Audit of Fiscal Year 1996 Compliance with
Requirements Applicable to Federal Awards (Smithsonian Institution). The
auditor is required to determine whether the recipient has complied with laws and
regulations that may have a direct and material effect on any of its major Federal
programs. General requirements are those that could have a material effect on the
recipient’s financial statements including those prepared for Federal programs. The
auditors’ procedures were limited to general and specific requirements
for the allowable costs/cost principles as prescribed in the OMB Circular A-133
Compliance Supplement. We reviewed the audit program for the appropriate
procedures, compared the audit program steps to those in the Compliance Supplement
to make sure that all areas were audited, reviewed the working paper documentation
and its support, and reviewed the compliance tests performed.

Report on OMR Circular A-133 Audit of Fiscal Year 1996 Compliance with
Requirements Applicable to Federal Awards (Smithsonian Astrophysical
Observatory). The auditor is required to determine whether the recipient has complied
with laws and regulations that may have a direct and material effect on any of its major
Federal programs. General requirements are those that could have a material effect on
the recipient’s financial statements including those prepared for Federal programs. The
auditors’ procedures were limited to general and specific requirements for the allowable
costs/cost principles as prescribed in the OMB Circular A-133 Compliance Supplement.
We reviewed the audit program for the appropriate procedures, compared the audit
program steps to those in the Compliance Supplement to make sure that all areas were
audited, reviewed the working paper documentation and its support, and reviewed the
compliance tests performed.

Report on OMB Circular A-133 Review of Fiscal Year 1996 Internal Control Used
in Administering Federal Awards (Smithsonian Institution). The auditor is required
to assess control risk to determine whether to place reliance on the internal control
structure. The auditor must perform tests of controls to evaluate the effectiveness of
the design and operation of the policies and procedures in preventing or detecting
material noncompliance. The auditors’ tests were limited to controls over allowable
costs/cost principles. We reviewed the audit program for the appropriate procedures,
the working paper documentation, and the results of the testing of controls.

Report on OMR Circular A-133 Review of Fiscal Year 19% Internal Control Used
in Administering Federal Awards (Smithsonian Astrophysical Observatory). The
auditor is required to assess control risk to determine whether to place reliance on the
internal control structure. The auditor must perform tests of controls to evaluate the
effectiveness of the design and operation of the policies and procedures in preventing or
detecting material noncompliance. The auditors’ tests were limited to controls over
allowable costs/cost principles. We reviewed the audit program for the appropriate
procedures, the working paper documentation, and the results of the testing of controls.




                                        6
Comments

       Because this report does not contain findings or recommendations, written comments
       are not required. If you have questions on this report, please contact Mrs. Barbara
       Smolenyak, Program Director, at (703) 604-8761. The report distribution is in the
       Enclosure.




                                Robert j. Lieberman
                             Assistant Inspector General
                                     for Auditing

Enclosure
                                The Smithsonian Institution
                          Fiscal Year Ended September 30,196

                                     Distribution Lit

Board of Regents
Smithsonian Institution
955 L’Enfant Plaza, SW
Suite 7400, MRC 903
Washington, DC 20560

Mr. Richard McKinless
KPMG Peat Mat-wick LLP
2001 M Street, NW
Washington, DC 20036

Branch Manager
Defense Contract Audit Agency
District Branch Office
8181 Professional Place, Suite 112
Landover, MD 207852218

Commander
Defense Contract Management Command
8725 John J. Kingman Road, Suite 4539
Fort Belvoir, VA 22060-3060

Director, Defense Contract Audit Agency
8725 John J. Kingman Road, Suite 2135
Fort Belvoir, VA 22060-6219

Director, Defense Procurement
Office of the Under Secretary of Defense
 for Acquisition and Technology
3060 Defense Pentagon
Washington, DC 20301-3060

Director, Defense Research and Engineering
Office of the Under Secretary of Defense
 for Acquisition and Technology
3030 Defense Pentagon
Washington, DC 2030 l-3030

Chief, Office of Naval Research
800 North Quincy Street
Arlington, VA 22217-5660

                                                               Enclosure
Evaluation Team Members

This report was prepared by the Financial and Performance Audits Directorate, Office
of the Deputy Assistant Inspector General for Audit Policy and Oversight, DOD.

Barbara E. Smolenyak
Donald D. Steele
Andrew Katsaros
Sunil R. Kadam
Nancy C. Cipolla
Janet C. Johnson
